I N T H E S U P R E M E C O U R T O F T H E U NI T E D S T A T E S

C A S TI L L O, M A RI A RI T A
P etiti o n er
vs.

N o:

2 0- 1 2 6 0

M E R RI C K B. G A R L A N D, A T T O R N E Y G E N E R A L
W AI V E R
T h e G o v er n m e nt h er e b y w ai v es its ri g ht t o fil e a r es p o ns e t o t h e p etiti o n i n t his c as e,
u nl ess r e q u est e d t o d o s o b y t h e C o urt.

E LI Z A B E T H B. P R E L O G A R
A cti n g S oli cit or G e n er al
C o u ns el of R e c or d
M ar c h 2 4, 2 0 2 1
c c:
S T A C Y T O L C HI N
L A W O F FI C E S O F S T A C Y T O L C HI N
6 3 4 S. S P RI N G S T R E E T
S UI T E 5 0 0 A
L O S A N G E L E S, C A 9 0 0 1 4

